                            Office of Inspector General
                                Gregory H. Friedman
                                  Inspector General

      This report is also available on the Department of Energy/Office of Inspector General
                                Website at http://www.ig.energy.gov




Cover Pictures


(clockwise from top left)

Wind power turbine located at Altamont Pass near Livermore, California

The Gammasphere, designed to detect and analyze gamma rays, in the final assembly phase at
Lawrence Berkeley National Laboratory

Helicopter transporting power line equipment for the development of the Snettisham Project in Alaska

Welding on a low beta quadropole magnet at Fermilab

Dish solar power system at the Arizona Public Service Solar Test and Research Center
                          Department of Energy
                              Washington, DC 20585

                              October 31, 2006




Tlie Honorable Samuel W. Bodnian
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Bodman:

I ain pleased to submit the Office of Inspector General's (OIG) Senziunnuul
Report to Congress. This report summarizes significant OIG activities and
accomplislunents during the six month period ending September 30, 2006.

This report reflects our continuing commitment to focus OIG efforts on the issues
and concerns most critical to you, the Administration, the Congress, and the
taxpayer. In particular, the report details OIG accomplishments in identifying the
Department's most significant management challenges.

We look forward to working with you on matters of mutual interest.

                                             Sincerely,




                                            Gregory H. Friedman
                                            Inspector General

Enclosure
                            SEMIANNUAL REPORT TO CONGRESS




                       Table of Contents
Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Accomplishments Addressing Management Challenges . . . . . . . . . 3
      National Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

      Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Stockpile Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

      Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

      Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

      Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

      Financial Management and Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15


Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . .17
      Worker and Community Safety . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

      Administrative Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

      Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

      Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

      Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

      Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

      Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

      Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

      Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

      Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

      Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33



                                                                 i
U . S . D E PA RT M E N T O F E N E R G Y                                      OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                      ii
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Inspector General’s Message

I
   am pleased to provide the Office of Inspector General’s (OIG)
   Semiannual Report to Congress for the reporting period
   ending September 30, 2006. This report highlights our
most significant accomplishments in identifying areas of
Department of Energy operations most vulnerable to
waste, fraud, and mismanagement.

During this reporting period, we continued to assist the
Department’s management in addressing its mission-
related priorities. As a direct result of our audits and
inspections, significant opportunities for programmatic cost
savings, operational efficiencies and enhanced results were
identified. We issued 49 audit and inspection reports, which
contained recommendations identifying over $236 million in
potential savings. In addition, we referred 15 investigations for prosecution and had 14 criminal
convictions. During this reporting period, our work led to the recovery of over $10 million in fines,
settlements and restitutions. This brings our total for Fiscal Year 2006 to 52 indictments, 23
convictions and nearly $39 million in direct monetary recoveries.

In recent years, as a result of the importance and sensitivity of the Department’s numerous
projects, along with the vast array of data that it produces, cyber security has become a crucial
aspect of the Department’s overall security posture. As intrusions and attacks on Government
computer systems have increased over the last several years, protecting sensitive data, including
personal information, has grown to become a vital aspect of the Department’s operating
objectives. The OIG conducted a variety of reviews over the past six months designed to assist
the Department in identifying cyber security program vulnerabilities. Resulting reports included
a series of recommendations to enhance overall cyber security efforts.

As required by the Federal Information Security Management Act, the OIG conducts an annual
review to determine whether the Department’s unclassified cyber security program adequately
protects data and information systems. During the last year, the Department launched a cyber
security revitalization program and issued enhanced guidance designed to strengthen protective
efforts. While these were positive steps, we continued to observe deficiencies in the Department’s
critical systems.

These types of deficiencies were highlighted during a June 9, 2006, congressional hearing, when
Department officials publicly disclosed that an unclassified computer system was compromised
at the National Nuclear Security Administration Service Center in Albuquerque, New Mexico.
As a result, a file containing the names and social security numbers of 1,502 employees was
compromised. An OIG special inquiry was immediately initiated at the request of the Secretary
of Energy. As a result of the review, we concluded that the Department’s handling of this matter
was largely dysfunctional and that operational and procedural breakdowns were caused by
questionable managerial judgments; significant confusion by key decision makers as to lines of
authority, responsibility and accountability; poor internal communications; and, insufficient



                                                 1
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




follow-up on critically important issues and decisions. Based on our review, we issued several
recommendations to the Department designed to aid in precluding a recurrence of this event or
similar situations.

Additionally, the OIG, in coordination with the President’s Council on Integrity and Efficiency,
performed a review of the Department’s controls over information systems that contain personally
identifiable information. We determined that although the Department has made progress in this
area and has indicated that it plans to fully implement needed control measures, recently
developed policies pertaining to personally identifiable information were missing key components
and, thus far, implementation of these policies was incomplete.

Due to the evolving nature of cyber security threats, immediate as well as long-term action is
necessary to ensure the protection of the Department’s information systems. The OIG maintains
dedicated investigative and audit units with responsibility for information technology-targeted
                                                                 reviews. A team of Special Agents
                                                                 investigates the ever-increasing
                                                                 number of crimes committed
                                                                 against the Department using
                                                                 emerging information technologies,
                                                                 and a team of auditors conducts
                                                                 independent audits and evaluations
                                                                 of the Department's cyber security
                                                                 program, including tests of
                                                                 program, management, technical
                                                                 and operational controls.

                                                                The Office of Inspector General
                                                                remains committed to being an
                                                                instrument for positive change in
                                                                the Department. This goal is
                                                                achieved through the diligent work
and commitment of all OIG employees. In addition to the outstanding results demonstrated
through our various audits, inspections, and investigations, this year we were the proud recipients
of nine “Award for Excellence” honors from the President’s Council on Integrity and Efficiency.
I would like to express my appreciation for the accomplishments of all OIG employees and
commend them for their continued professionalism and dedication.

The Department of Energy and its broad array of missions and functions are critical to the
Nation. As always, we look forward to continuing to serve the American public by identifying
ways that the Department can more effectively and efficiently fulfill these responsibilities.




                                                                  Gregory H. Friedman
                                                                  Inspector General




                                                 2
OFFICE OF INSPECTOR GENERAL                                U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                  Accomplishments Addressing
                  Management Challenges
On an annual basis, the Office of Inspector General identifies what it considers to be the
most significant management challenges facing the Department. This effort highlights those
programs and operations that are, in our judgment, the most difficult to manage as well as
those with the most significant demonstrated performance problems. This year, the OIG
determined that the most serious challenges facing the Department are:

      ■ National Security
      ■ Environmental Cleanup

      ■ Stockpile Stewardship

      ■ Contract Administration

      ■ Project Management

      ■ Information Technology

      ■ Financial Management and Reporting



These challenges relate to mission-critical activities as well as weaknesses in the
Department’s internal control structure. National security, environmental cleanup and
stockpile stewardship represent risks that are associated with the Department’s historic
missions. The remaining challenges relate to management weaknesses affecting the
Department’s control structure. Highlights of our work in these challenge areas, set forth
in the following sections of this report, are organized by management challenge area.




National Security
A primary responsibility of the Department is to enhance national security through the
application of nuclear technology. In order to accomplish this goal, the Department
oversees the maintenance of the Nation’s nuclear weapons stockpile, develops infrastructure
for and ensures the security of the nuclear complex, strengthens international nuclear
nonproliferation controls, provides safe and effective nuclear power for the U.S. Navy, and
operates a number of national laboratories. Our reviews over the past six months identified
ways that the Department could further strengthen its efforts in the area of national security.




                                              3
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Management of Non-Nuclear High Explosives
Due to the inherently dangerous nature of high explosives, Department regulations require
that strict control and accountability be maintained over all components. An OIG audit
found that the Los Alamos National Laboratory and the Sandia National Laboratory were
not always maintaining control, accountability, and safety over a wide array of explosives.
Specifically, we observed that:

     ■ Sandia could not properly account for at least 410 items, including detonators,
       rocket motors, shaped explosives, and bulk explosive powders;
     ■ Both Sandia and Los Alamos accumulated large quantities of anti-personnel rockets,

       gun rounds and cartridges, and aircraft rocket motors that were not likely to be
       needed for current or future missions;
     ■ Sandia’s explosives inventory system could not be reconciled to inventories

       maintained by certain Federal facilities at which Sandia stored explosives;
     ■ Approximately 190,000 pounds of explosive propellant contained in 39 rocket

       motors owned by Sandia were not recorded in the Laboratory’s inventory system;
       and,
     ■ Both Sandia and Los Alamos were not inspecting or reviewing the stability and

       safety characteristics of most of their high explosive materials.

The lack of control and accountability occurred, in large part, because the Laboratories
failed to design and implement effective local high explosive management strategies.
(IG-0730)


The Human Reliability Program
The Lawrence Livermore National Laboratory has an extensive Human Reliability Program
(HRP) intended to ensure that its many employees working in the nuclear weapons
program meet the highest standards of physical and mental stability. An OIG inspection
found that the HRP at Livermore was not administered in full accordance with applicable
requirements. For example, the methodology used to select individuals for drug and alcohol
testing did not ensure that the tests were random, as required. In addition, HRP medical
reviews were not always as comprehensive as required by Department regulations.
(IG-0732)




                                              4
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Export License Applications for China
An interagency Inspectors General working group reviewed the export of sensitive U.S.
technologies and technical information to the People’s Republic of China. The overall
objective of our segment of this multi-agency effort was to determine if the Department
appropriately participated in the export license review process. Our inspection concluded
that the Department’s participation in the export license review process to control the export
of critical technologies to China was appropriate and consistent with existing procedures.
(IG-0723)


Badge Retrieval and Security Clearance Termination at
Sandia National Laboratory
The Sandia National Laboratory-New Mexico is involved in a variety of research and
development programs to enhance national security. An OIG inspection was initiated to
determine if Sandia’s internal controls were adequate to ensure that, in accordance with
applicable policies and procedures, security badges assigned to terminating employees were
retrieved at the time of their departure and security clearances of departing employees were
terminated in a timely manner. We concluded that Sandia’s internal controls were not
adequate to ensure that security badges assigned to Laboratory employees were retrieved at
the time of departure or that security clearances of departing employees were terminated in
a timely manner. Given the similarity of our findings to those of previous reviews at the Los
Alamos National Laboratory and the Lawrence Livermore National Laboratory, we
concluded that senior Department management should consider taking broader action to
ensure that all Department sites are adequately addressing these issues. (IG-0724)


Protective Force Property at the Pantex Plant
The Pantex Plant mission includes, among other things, the assembly and disassembly of
nuclear weapons and the interim storage of plutonium pits. An OIG inspection was
initiated to ensure that protective force security-related sensitive property was appropriately
controlled by the site’s contractor. While we did not identify missing security-related
sensitive items, weaknesses were found within the internal controls of the contractor’s
property program. (INS-L-06-06)




                                               5
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Protective Force Work Environment at Sandia National Laboratory
                                                    Upon receiving information regarding the work
                                                    environment within the protective force at Sandia
                                                    National Laboratory-New Mexico, such as possible
                                                    harassment and discrimination, an OIG inspection
                                                    was initiated to evaluate the facts surrounding this
                                                    matter and its impact on officer morale. We
                                                    found that approximately 75 percent of the
                                                    protective force officers we interviewed
                                                    characterized the morale of the protective force as
                                                    low to very low, identifying a hostile work
Protective Force training at an outdoor rifle range environment, inconsistent application of
disciplinary policies, and discrimination as contributing factors. Subsequent to our review,
Sandia made changes in its protective force management personnel. We concluded that
management needs to be sensitive to the concerns raised during this review and should fully
examine these issues in future reviews of Sandia security to ensure that these issues have
been appropriately addressed. (INS-L-06-05)


Destruction of Classified Hard Drives at Sandia
National Laboratory
Upon receiving information regarding potential internal control weaknesses associated with
the disposal of classified computer hard drives at the Sandia National Laboratory-New
Mexico, an OIG inspection was initiated to determine if internal controls for the
destruction of the Laboratory’s classified hard drives were adequate. We concluded that
these internal controls were not adequate to assure the protection and control of classified
material. Specifically, our inspection confirmed that classified hard drives were being
degaussed, but were not being destroyed in accordance with Department policy. In
addition, Sandia did not adhere to a number of other policies applicable to the destruction
of classified hard drives. (IG-0735)




                                                   6
OFFICE OF INSPECTOR GENERAL                                   U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Environmental Cleanup
With the end of the Cold War, this mission became of even greater importance, as efforts to
dispose of large volumes of solid and liquid radioactive waste became essential as a result of
more than 50 years of nuclear defense work and energy research. The Department is
responsible for cleaning contaminated sites and disposing of radioactive waste resulting from
nuclear weapons production, nuclear powered naval vessels, and commercial nuclear energy
production. Due to the risks and hazards associated with this difficult and costly task, we
initiated the following reviews to help ensure that the Department is fulfilling its mission
with regard to environmental cleanup.


Cesium and Strontium Capsule Disposition at the Hanford Site
                                            Between 1974 and 1985, the Department’s Hanford
                                            Site separated cesium and strontium from tank waste
                                            and encapsulated the material for a variety of
                                            purposes. Through its contractor, the Department
                                            spends approximately $4.1 million per year to
                                            maintain the capsules in pool storage. According to
                                            the National Academy of Sciences, the capsules have
                                            been described as “the most lethal source of radiation
                                            in the United States, except for the core of an
                                            operating nuclear reactor.” An OIG audit was
                                            initiated to determine if the Richland Operations
                                            Office is pursuing the most viable and economical
                                            strategy for disposing of the cesium and strontium
                                            capsules. We found that the Department’s preferred
                                            approach of direct disposal of the capsules in the
                                            Yucca Mountain Repository may not be the most
                                            viable or cost-effective approach to disposal.
Waste storage tanks at the Hanford Site     (OAS-M-06-06)




         Public reports are available in full text on our website at www.ig.energy.gov



                                                  7
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Spent Nuclear Fuel at the Savannah River Site
An OIG audit was initiated to determine the status of the spent nuclear fuel program at the
Savannah River Site and to determine whether the Department will have to maintain H-
Canyon capabilities beyond the time required to carry out defined work requirements. We
found that there have been delays in developing and implementing the spent nuclear fuel
program at the Savannah River Site. As a result, H-Canyon will have to be maintained in
an idle, but operational mode for at least two years. Given the commitment the
Department made in a Record of Decision and the absence of a fully developed disposition
                                            strategy, the two-year gap is projected to cost
                                            taxpayers approximately $300 million. To address
           Did you know?
                                            this situation, we made several recommendations
  The Savannah River Site occupies          designed to ensure that the Department
  310 square miles, which is
                                            establishes a complex-wide strategy and expedites
  approximately the size of the area
                                            the implementation of a technology to prepare
  inside the Washington, DC beltway.
                                            spent nuclear fuel at the Savannah River Site for
                                            disposition. (IG-0727)




Stockpile Stewardship
The Department is responsible for the maintenance, certification and reliability of the
Nation’s nuclear weapons stockpile. In order to ensure that the United States’ nuclear
weapons continue to serve their essential deterrence role, the Department maintains stockpile
surveillance and engineering capability, refurbishes selected nuclear systems, and sustains the
ability to restore the manufacturing infrastructure for the production of replacement
weapons. Given the importance and complexity of the Department’s role in ensuring the
vitality of the U.S. nuclear stockpile, we conducted the following reviews to examine the
Department’s activities and management strategies in this crucial area.


W76 Life Extension Project
An OIG audit concluded that the National Nuclear Security Administration (NNSA) is at
risk of not achieving the first production unit for the W76 weapon system refurbishment
within the established scope, schedule, and cost parameters as detailed in the project plan.
Specifically, we found:

     ■ Delays in completing tests and production related milestones;
     ■ Reductions in the scope of activities required to support final design and

       production decisions;
     ■ Unexplained variances in project cost data; and,

     ■ Incomplete documentation of changes to the project cost baseline.




                                              8
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




A failure to complete the W76 refurbishment first production unit within the established
schedule and scope could have a direct effect on full-scale production decisions, impact
NNSA’s ability to manage project costs, and affect overall national security goals of the
refurbishment effort. As a result, we recommended that NNSA strengthen project
management planning and ensure future Life Extension Programs implement the project
management principles of timely comprehensive project planning. (IG-0729)


B61 Spin Rocket Motor Project
The Sandia National Laboratory is in the process of refurbishing the Spin Rocket Motor,
which is a prime component of the B61 nuclear weapon system. Upon receiving allegations
raising serious questions concerning the Department’s decision to proceed with the B61
Spin Rocket Motor project, an OIG audit was initiated to evaluate concerns regarding the
performance of the motor. While we recognized that the age of the Spin Rocket Motor in
and of itself may have provided a reasonable basis to be concerned about the performance of
the existing motor, the project was approved before problems were fully investigated for
cause and effect and before the cost impact of various options was fully evaluated. We
found that the NNSA had not adequately validated key Spin Rocket Motor data provided
by Sandia prior to the approval of the new project. We made several recommendations to
ensure that future refurbishment projects are managed in accordance with Department
procedures, specifically to ensure that such projects are justified and supported based on
analyses of refurbishment options and validated cost data. (IG-0740)




Contract Administration
To accomplish its mission, the Department places significant reliance on contractors. In fact,
approximately three-fourths of the Department’s budget is expended on these contracts. As a
result, effective contract administration is an essential component of the Department’s
management of its many programs. The OIG initiated the following reviews in order to
assess the Department’s contract administration.


Management Controls over Small Business Opportunities
The National Nuclear Security Administration established a policy requiring its field offices
to work with management and operating contractors to provide small businesses the
maximum practicable opportunity to provide the goods and services needed to support
programs and activities. An OIG audit was initiated to determine whether the Lawrence
Livermore National Laboratory had identified functions that could be subcontracted to
small businesses. Although the Laboratory contracted many existing large subcontracts to




                                              9
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




small businesses, it had not identified internally performed functions that could be
subcontracted to small businesses even though it was practicable and cost effective to do so.
(OAS-M-06-08)


Performance-Based Contract Incentives at the Hanford Site
As a result of the extraordinary health and safety risks that exist at the Hanford Site and the
sizable commitment of funds for site environmental remediation, an OIG audit was
                                           initiated to determine whether the Department
           Did you know?                   had effectively implemented the performance-
  The Office of River Protection was       based incentives program at the site. We found
  established by Congress in 1998          that although the Office of River Protection and
  with the exclusive focus of solving      the Richland Operations Office intended for their
  cleanup challenges at the Hanford
                                           performance-based contract incentives to be
  Site, which contains 60 percent by
                                           result-oriented, in certain cases, fees were paid for
  volume of the Nation’s high-level
  radioactive waste.
                                           work on projects where the work assigned was not
                                           realistic or achievable. (IG-0739)


Utilization of Fleet Vehicles
The Department and its contractors maintain a fleet of about 14,000 vehicles at an annual
cost of nearly $100 million. An OIG audit was initiated to determine whether the
Department was effectively managing its fleet vehicles. Our review found a number of
opportunities to improve the efficiency of fleet vehicle management. We found that
approximately 28 percent of vehicles were underutilized and numerous vehicles were
virtually unused, traveling less than 1000 miles each during FY 2004. We determined that
the Department was expending funds on the acquisition, maintenance, and management of
fleet vehicles that may not be essential for mission accomplishment. (IG-0728)


Prime Contractor Reimburses Department for Unallowable Costs
An OIG investigation determined that Department contractor and subcontractor officials
at the Savannah River Operations site appointed 18 interns who did not meet the
minimum academic standards. The OIG issued an Investigative Report to Management
recommending that the Department determine the allowability of costs charged to this
program. Subsequently, the contractor reimbursed the Department $237,724 for
unallowable costs associated with interns who did not meet academic standards.
(I03SR010)




                                              10
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                        SEMIANNUAL REPORT TO CONGRESS




Management Controls over Performance Fees
An OIG audit was initiated to determine whether the Department effectively used
performance measures and fees to appropriately reward contractor performance at the Idaho
National Laboratory. We found that the Department did not always effectively use these
performance measures and fees. Furthermore, in establishing fees, management did not
balance achieving programmatic priorities against the level of difficulty associated with
performing the work. We identified $2.5 million in performance fees either paid or
available to the contractor during FYs 2005 and 2006 that were questionable.
(OAS-M-06-07)




Project Management
The Department undertakes numerous unique and complex high-cost projects in order to
support its mission. Utilizing stronger policies and controls to ensure that ongoing projects
are reevaluated frequently, the Department has made project management a primary area of
focus. Recent OIG reviews identified additional necessary improvements to ensure that the
Department’s project management principles are effective and accomplishing their goals.


Office of Civilian Radioactive Waste Management’s
Corrective Action Program
The Department’s Office of Civilian Radioactive Waste Management is preparing to seek a
Nuclear Regulatory Commission (NRC) license to construct a permanent repository at Yucca
Mountain, Nevada, for the disposal of high-level radioactive waste and spent nuclear fuel. To
meet NRC requirements, the Department implemented a Corrective Action Program to
identify and resolve all potential conditions adverse to quality that may be reported by
                                                 Department employees and external stakeholders. At
                                                 the request of the Acting Director of the Office of
                                                 Civilian Radioactive Waste Management, an OIG audit
                                                 was initiated to determine whether the Corrective
                                                 Action Program was achieving its goal of identifying,
                                                 tracking, and resolving all identified conditions adverse
                                                 to quality that could affect the license application
                                                 process. We found that the Corrective Action Program
                                                 was not effectively managing and resolving conditions
Test alcove within the Yucca Mountain repository
                                                 adverse to quality at the Yucca Mountain Project. As a
result, potential conditions that could affect the ongoing design and analysis work may go
unresolved, delaying issuance by the NRC of the license to begin construction and operation
of the repository. We made several recommendations to further assist management in ensuring
that the Corrective Action Program meets it goals. (IG-0736)


                                                   11
U . S . D E PA RT M E N T O F E N E R G Y                      OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Yucca Mountain Quality Assurance Investigation
As discussed in the preceding OIG Semiannual Report to Congress, in March 2005,
Department officials were alerted to the discovery of a series of electronic mail messages that
discussed the potential falsification of work and compromise of quality assurance
requirements related to the Yucca Mountain Project. As a result of the discovery, a joint
OIG investigation with the Department of Interior was initiated into the potential
falsification of research data at Yucca Mountain as well as false representation of compliance
with existing quality assurance standards. The extensive factual record developed during the
investigation was provided to the U.S. Attorney’s Office (USAO) for the District of Nevada
at the conclusion of the field work. The USAO declined to pursue criminal prosecution in
this matter. However, during the course of the investigation, certain internal control
deficiencies were identified which were pertinent to the core allegations. Subsequently, a
memorandum was issued to the Secretary of Energy that outlined the results of the criminal
investigation, including the internal control deficiencies noted during the investigation.
(I05LV002)


State Energy Program’s Formula Grants
The Department’s State Energy Program provides grants to States to promote energy
conservation and efficiency. An OIG audit was initiated to determine whether the
Department had implemented controls to ensure grant funds were used for their intended
purpose. We found that the Department did not regularly perform on-site monitoring of
State Energy Offices to ensure that grant funds were being used for their intended purpose
and had not established meaningful performance metrics to determine the cost benefit of
the program. (OAS-M-06-05)




Information Technology
Information technology is vital in assuring that the Department fulfills its mission and
provides efficient and effective services to the public. While the Department has taken a
number of positive actions designed to improve the overall management of information
technology resources, additional improvements in this critical area are still needed. During
this reporting period, OIG reports have highlighted internal control weaknesses that have
impacted information technology systems and security.




      Public reports are available in full text on our website at www.ig.energy.gov


                                              12
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Compromise of Personnel Data
During a June 9, 2006, congressional hearing, Department officials publicly disclosed that
an unclassified computer system was compromised at the NNSA Service Center in
Albuquerque, New Mexico. As a result, a file containing the names and social security
numbers of 1,502 NNSA employees was compromised. An OIG special inquiry was
initiated to examine the facts and circumstances pertaining to this matter. Our inquiry did
not identify anyone in the Department who recalled briefing the Secretary of Energy or the
Deputy Secretary on the specific details of the computer attack until June 2006, even
though the attack was detected in mid-2005. Additionally, we confirmed that Federal and
contractor employees had not been notified that their personnel data was at risk until about
10 months after the data compromise was detected. Further, we determined that there was
a lengthy delay in the Department’s completion of an impact assessment of the intrusion.
We also found that the Department lacked clear guidance on procedures for notifying
employees when personnel data is compromised. We concluded that the Department’s
handling of this matter was dysfunctional and that the operational and procedural
breakdowns were caused by questionable managerial judgments; significant confusion by key
decision makers as to lines of authority, responsibility, and accountability; poor internal
communications; and, insufficient follow-up on critically important issues and decisions.
Based on our review, we made several recommendations designed to aid in precluding a
recurrence of this event or similar situations. (I06IG001)


The Department’s Unclassified Cyber Security Program–2006
As required by the Federal Information Security Management Act (FISMA), an OIG audit
was initiated to determine whether the Department’s unclassified cyber security program
adequately protects data and information systems. During the last year, the Department
launched a cyber security revitalization program and issued enhanced guidance designed to
strengthen protective efforts. While these were positive steps, we continued to observe
deficiencies that exposed the Department’s critical systems to an increased risk of
compromise. Specifically, we found that:

      ■ In spite of recent improvements in reporting methodologies and standards,
        the Department had not yet completed a complex-wide inventory of its
        information systems;
      ■ Many system certifications and accreditations had not been performed or

        were inadequate;
      ■ Contingency planning, vital to ensuring that systems could continue or resume

        operations in the event of an emergency or disaster, had not been completed for
        certain critical systems; and,
      ■ Weaknesses existed in physical, logical access, and change controls designed to

        protect computer resources.




                                             13
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




We found that continuing cyber security weaknesses occurred, at least in part, because
program and field elements did not always implement or properly execute existing
Department and Federal cyber security requirements. (IG-0738)


The Federal Energy Regulatory Commission’s
Unclassified Cyber Security Program
As required by FISMA, an OIG audit was initiated to evaluate the Federal Energy
Regulatory Commission’s cyber security program. We found that the Commission has
continued to strengthen its cyber security program and has completed corrective action on
several issues identified during a previous OIG review. Although these actions are
noteworthy, our evaluation disclosed several opportunities to improve the effectiveness and
decrease the risk associated with the Commission’s cyber security program. As a result, we
made several recommendations designed to aid management. (OAS-M-06-10)


Excessing Unclassified Computers at Los Alamos
National Laboratory
In August 2005, a computer excessed by the Los Alamos National Laboratory was sold at
auction. Subsequently, it was revealed that the computer still had its hard drive intact and
contained unclassified Laboratory documents. An OIG inspection was initiated to examine
the Laboratory’s excessing processes and to determine if Los Alamos had complied with
applicable internal controls. Our review concluded that Los Alamos had not complied with
applicable internal controls when excessing the computer. Specifically, Los Alamos had not
sanitized the hard drive prior to processing the computer as excess or removed the hard drive
prior to transferring the computer for sale at auction. The internal control failures relating
to the excessing and surplusing of this computer raised concerns as to whether the hard
drives for seven other computers sold at the same time were sanitized and removed prior to
being sold at auction. As a result, we recommended several corrective actions intended to
enhance data security at Los Alamos. (IG-0734)


Recovery of Computers
Two separate OIG investigations resulted in the recovery of a computer and a hard drive,
both containing personally identifiable information. In the first case, an investigation was
initiated in response to allegations that a private citizen involved in drug trafficking was in
possession of classified data on a computer hard drive from the Department’s Idaho
National Laboratory. OIG Special Agents recovered the hard drive. Forensic examination
revealed that while the hard drive contained no classified information, it contained personal
identifying information on 34 Department contractor employees. The investigation
revealed that the hard drive had not been properly sanitized before being disposed of several


                                              14
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




years ago. Local authorities accepted the case for prosecution on the drug-related violation.
The 34 employees were notified of the compromise of personal data. In the second case, an
OIG investigation was opened after a subcontractor computer containing identifying
information of subcontractor employees was stolen from the Department’s Oak Ridge
National Laboratory. The OIG investigation identified a former subcontractor employee as
a suspect. The employee and an accomplice were indicted. In addition, the subcontractor
employees were notified of the compromise of personal data. (I06IF003 and I06OR012)


Information Technology Support Services
In an August 2001 report, Information Technology Support Services Contracts, we concluded
that the Department did not have a comprehensive framework for acquiring information
technology (IT) support services. We initiated this most recent audit to determine whether
the Department now had designed and implemented an effective process for managing and
controlling contractor IT support services costs. Our audit revealed that while the
Department had initiated action to consolidate requirements for services provided to Federal
employees, it continued to face a number of challenges. Specifically:

      ■ Contractors frequently failed to take advantage of opportunities to aggregate
        demand to reduce IT support service costs;
      ■ Per user support costs varied substantially between Department sites;

      ■ Costs for co-located contractors varied by as much as 50 percent per user for the

        same or similar services; and,
      ■ A number of contractors did not actively track functional IT support costs,

        preventing contractor management and Federal officials from maintaining visibility
        over the component costs of furnished services.

Although the Department had initiated action to consolidate Federal IT support services by
implementing the Extended Common Integrated Technology Environment Program, it had
not established a comprehensive framework that would provide a corporate-wide approach
to providing IT support services. We concluded that there is a potential for significant cost
savings at the Department’s numerous contractor-managed sites through improved
management and control of IT support services. (IG-0725)




Financial Management and Reporting
For FY 2006, the OIG identified financial management and reporting as a new
management challenge. The Department’s implementation of a new financial management
system combined with standing up a new financial services organization resulted in a new
organizational structure for performing financial services and accounting operations.



                                             15
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




During the previous reporting period, we reported that the Department faced numerous
challenges related to data conversion which, in turn, adversely impacted the financial
management and reporting capabilities of the Department as well as the FY 2005 financial
statement audit. As a result, a disclaimer of opinion was issued on the Department’s
FY 2005 consolidated financial statements.

During the past year, the Department has worked to correct identified weaknesses in the
area of financial management and reporting. Pursuant to the requirements of the
Government Management Reform Act of 1994, an annual audit of the Department’s
consolidated financial statements is currently ongoing. The results of this review will be
available by November 15, 2006.




                                              16
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Other Significant
                   Accomplishments
Worker and Community Safety

Beryllium Controls at the Oak Ridge National Laboratory
                                                  Since the 1950s, the Department’s Oak Ridge
                                                  National Laboratory has managed Building
                                                  9201-2, located at the Y-12 National Security
                                                  Complex. In December 2001, an inventory of the
                                                  building detected the presence of beryllium. In
                                                  response to an allegation regarding the
                                                  mishandling of beryllium contaminated
                                                  equipment located in Building 9201-2, an OIG
                                                  audit was initiated to determine the validity of the
                                                  allegation as well as to analyze internal controls
Aerial view of the Oak Ridge National Laboratory
                                                 related to beryllium. Our review disclosed that the
Laboratory did not properly manage activities relating to beryllium contamination.
Specifically, we found that beryllium contaminated equipment was transferred from
Building 9201-2 to non-beryllium areas at the Laboratory. In addition, we found that
employees associated with moving and working with the equipment were not always
adequately protected from possible beryllium exposure. (IG-0737)


Beryllium-Associated Worker Registry
In January 2000, the Department established a Chronic Beryllium Disease Prevention
Program, in large part to reduce worker exposure to beryllium at Department facilities. A
key component of this program is the Beryllium-Associated Worker Registry, designed to
aggregate beryllium-associated worker information, such as exposure and medical data from
all Department sites. An OIG audit was initiated to determine whether the Department
had established, maintained, and effectively used the Registry to evaluate worker health
effects associated with beryllium exposure. We found that the Registry was established as
planned, but the Department had not maintained data completeness or accuracy, used the
Registry to evaluate health effects of beryllium exposure, or used the Registry to examine the
prevalence of beryllium disease, as initially envisioned. The results of our audit showed that
implementation of the Registry program did not meet its own expectations nor was it as
helpful as it could have been in achieving the worker safety objectives that were established



                                                 17
U . S . D E PA RT M E N T O F E N E R G Y                    OFFICE OF INSPECTOR GENERAL
                            SEMIANNUAL REPORT TO CONGRESS




by the Department. We offered several recommendations to assist efforts in restructuring
the Registry and, as a consequence, to advance the state of worker health and safety within
the Department as a whole. (IG-0726)


Lead Contamination and Radiological Controls at the
Nevada Test Site
Responding to an allegation that lead bricks at the Nevada Test Site’s Occupational
Medicine Facility created a lead dust hazard and that there were numerous specified
radiological control violations at the Site, an OIG inspection found that surface lead dust
                                                 contamination at four locations in the
              Did you know?                      Occupational Medicine Facility exceeded the
  Larger than the state of Rhode Island,         site contractor’s established threshold levels.
  the Nevada Test Site has diversified into      Further, the contractor had not taken action
  many other programs since the nuclear          to make surfaces in these contaminated areas
  weapons testing moratorium in 1992,            “as free as practicable” of lead dust, as required
  including hazardous chemical spill             by the Occupational Safety and Health
  testing, emergency response training,          Administration. Regarding the specified
  conventional weapons testing, and              radiological control violations, we found that
  waste management and environmental             a number did exist, but they were self-
  technology studies.                            reported by the Site contractor and corrective
                                                 actions were in the process of being verified
for completion. Our inspection also identified areas for improvement in the Site’s sealed
radioactive source program. Based on our findings, we recommended several corrective
actions intended to enhance safety and health at the Nevada Test Site. (INS-O-06-02)


Stanford Linear Accelerator Center Employee Safety Training
                                        Upon receiving an allegation regarding employee safety
                                        training at the Department’s Stanford Linear Accelerator
                                        Center (SLAC), an OIG inspection was initiated to
                                        determine if Department training requirements were being
                                        followed. Our review found that many employees’ Safety
                                        Training Assessments (STAs), which SLAC uses to establish
                                        employees’ basic environment, safety, and health training
                                        requirements, were not updated in a timely manner or were
                                        inadequate. Given the importance of employee safety
                                        training, ensuring the completion of STAs is vital. In
                                        response to our recommendations, Department management
                                        indicated that measures were being taken to ensure that
                                        safety training requirements are being met and also stated
Babar Detector System at the Stanford   that an external peer review process has been initiated to
Linear Accelerator Center               review SLAC’s safety training program. (INS-L-06-07)


                                                   18
OFFICE OF INSPECTOR GENERAL                                   U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Administrative Safeguards

The Department’s Interaction with the National Coal Council
In response to a request by Senator Joseph Lieberman, an OIG audit was initiated to
determine whether the membership and conduct of the National Coal Council, a
Department of Energy advisory committee, complied with the requirements set forth in the
Federal Advisory Committee Act. Specifically, Senator Lieberman was concerned that the
National Coal Council and, in particular, a recent Council report, did not fairly reflect the
views of all relevant positions, particularly those of environmental groups. During the
course of our review, the Department initiated an effort to address issues of fairness by
taking steps to broaden Council representation as well as initiating an additional study to
address environmental concerns. (OAS-L-06-16)


Department Supplier Sentenced for Trafficking
in Counterfeit Goods
As previously reported, a joint OIG investigation with the Federal Bureau of Investigation
and the Postal Inspection Service determined that the owner of a wholesale computer parts
reseller supplied $380,000 in counterfeit computer memory kits to the Department’s Bettis
and Knolls Atomic Power Laboratories. The parts were determined to be counterfeit before
they were installed. The subject pled guilty to a one count violation of Trafficking in
Counterfeit Goods under Title 18, U.S.C., Section 2320. During this reporting period, the
subject was sentenced to 10 months home confinement and 3 years probation.
(I02PT005)


Response to Hurricanes Katrina and Rita
An OIG follow-up review to identify the actions taken by the Department in response to
Hurricanes Katrina and Rita determined that since November 2005 the Department has
made significant progress toward implementing our recommendations to enhance its
Emergency Support Function-12 (ESF-12) mission capabilities. Specifically, the
Department clarified communications processes during ESF-12 deployments, addressed
responder equipment needs, and augmented staffing levels to meet mission requirements.
However, opportunities remain to improve the Department’s efforts to identify emergency
response assets in advance of events such as natural disasters. Departmental action to
improve its inventory of emergency response assets will further strengthen the progress
already made in implementing our earlier recommendations. (IG-0733)




                                             19
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Subject Pleads Guilty in Mail Fraud Scheme
A joint OIG investigation with the Federal Bureau of Investigation determined that
the subject, along with other unindicted co-conspirators, devised a scheme to use the
U.S. Postal Service to submit invoices and obtain payments from a Department grantee
for work not performed. The scheme resulted in approximately $325,000 in fraudulent
payments. The subject pled guilty to a one count violation of Mail Fraud under Title 18,
U.S.C. Section 1341-1346. (I04HQ002)


Settlement Reached in Civil False Claims Investigation
A joint OIG investigation with the FBI, the Department of Health and Human Services,
and the Department of Education of a qui tam complaint filed under the False Claims Act
determined that a recipient of Department Cooperative Agreement funds submitted
financial status reports that contained false claims from September 30, 1990, to
September 29, 2002. Those claims included inflated matching funds, which the recipient
was supposed to contribute as part of the Cooperative Agreement. The recipient entered
into a $5,266,645 civil settlement with the U.S. Government. Of those funds, $4,166,645
were returned to the Department. (I04OR002)


Former Contractor Employee Debarred After Forgery Conviction
An OIG investigation determined that a former Department contractor employee
embezzled approximately $40,000 from his company while working on a Department
contract at the Department’s East Tennessee Technology Park. The investigation revealed
the subject kept former employees on the payroll without their knowledge, collected their
paychecks, forged their signatures on the checks, and then cashed the checks. The subject
was indicted by the State of Tennessee for 49 violations of forgery and 49 violations of theft
of property. The subject pled guilty to 25 counts of forgery and agreed to pay restitution.
The subject was also debarred from Government contracting for a three-year period.
(I04OR012)


Department Employee Pleads Guilty to Sexual Battery
to a Minor Child
A joint investigation between the OIG and the Federal Bureau of Investigation, Idaho Falls
Police Department, and Madison County Sheriff ’s Office determined that, while on travel
to Idaho, a Department Headquarters Manager engaged in sexual activity with a minor.
The subject was arrested and charged with first degree kidnapping and three counts of
Sexual Battery to a Minor. He subsequently pled guilty to one felony count of Sexual
Battery to a Minor in an Idaho District Court. The subject was sentenced to 5 to 15 years



                                              20
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                        SEMIANNUAL REPORT TO CONGRESS




incarceration and ordered to pay $5,297 in fines; court ordered restitution to the victim is
still pending. The Department suspended the subject’s employment and the subject
subsequently resigned. (I05IF002)


Subject Prosecuted for Stealing Government Property
A joint OIG investigation with the Miamisburg Police Department determined that a
subcontractor employee stole Government property from the Mound Facility in
Miamisburg, Ohio, during a five-year period. The subject admitted that he had stolen
numerous items, including riding lawn mowers, blow torches and other equipment. The
original value of the stolen equipment was estimated at $85,782. The subject pled guilty to
a felony violation of Ohio Code 2913.51 (A) (Receiving Stolen Property) and was sentenced
to five years probation. (I06OR001)




Results

Highlights of Positive Results Based on Office of
Inspector General Work
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:
   ■ The Department took several actions to reduce costs and better manage its Fleet

     Vehicle Program. Specifically, 2 program offices reduced their fleets by 25 vehicles
     while 2 additional program offices identified nearly 200 vehicles that would be
     removed from their fleets.
   ■   The Department restructured its corrective action plan to correct material financial
       management and reporting weaknesses. The restructured plan identified management
       officials responsible for taking specific corrective actions and improving accountability.
       In addition, the Department established completion goals for all tasks and reinstituted
       a method of tracking progress toward meeting goals.
   ■   The Department revised a project management directive to resolve inconsistencies with
       related policy and provide better guidance on monitoring and control of information
       technology projects or investments.
   ■   The Department continued to take action in strengthening its cyber security posture
       by launching a revitalization program and implementing several measures to reduce
       cyber security weaknesses. As part of the revitalization effort, enhanced guidance
       designed to strengthen protective efforts was issued. This new and updated guidance
       addressed areas such as risk management and protection of personally identifiable


                                                 21
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




      information. In addition, the Department improved its process for reporting cyber
      security incidents to law enforcement.
  ■   The Department’s Fermi Site Office recovered nearly $110,000 in unallowable costs for
      procurement card purchases, travel costs, and allocated Corporate Office expenses
      claimed in FY 2004 at the Fermi National Accelerator Laboratory. Additionally, similar
      action is being taken to recover similar costs identified as unallowable for FYs 2005 and
      2006. Further, the Fermi Site Office prompted the contractor to take action to reduce
      the likelihood of similar future unallowable costs.
  ■   The management and operating contractor at the Pantex Plant revised its written
      property tracking and inventory procedures to ensure that security equipment is being
      appropriately controlled.
  ■   The management and operating contractor at the Nevada Test Site developed and
      implemented an interim control plan for safe entry into lead contaminated spaces.
  ■   The management and operating contractor at the Nevada Test Site increased the
      number of sealed radioactive source program assessments performed in a year and
      revised its Source Control Program site requirements to ensure consistent
      implementation of its policies and procedures.
  ■   The Department issued supplemental guidance to the Office of Counterintelligence
      that clearly defines how and when that office can collect and retain information on
      United States citizens.
  ■   The management and operating contractor at Sandia National Laboratory-New Mexico
      revised its Buy American Act procurement guideline and provided training to the
      Sandia Contracting Representatives to ensure compliance with these requirements.
  ■   The Lawrence Livermore National Laboratory implemented a new policy designed to
      recover the badges of terminating employees in a timely manner.
  ■   The Department and Lawrence Livermore National Laboratory finalized performance
      measures for FY 2007 to ensure that significant aspects of its personal security activities
      comply with Department policy.
  ■   The Office of Environment, Safety and Health took action to correct existing data
      errors and omissions in the Department's Beryllium-Associated Worker Registry. It
      also initiated efforts to revise the Department's Technical Standard for implementing
      the Registry.
  ■   The Department took action to improve its Emergency Support Function-12 response
      capabilities. In particular, the Department clarified communications processes during
      deployments, addressed responder equipment needs, and augmented staffing levels to
      meet mission requirements.
  ■   The Federal Energy Regulatory Commission corrected blank and weak passwords on
      computer systems, disabled unused network accounts, and completed self-assessments
      for all of its major applications and general support systems in order to strengthen its
      cyber security program.




                                               22
OFFICE OF INSPECTOR GENERAL                                U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




   ■   The Department issued DOE Notice 350.2, Supplemental Requirements for the Use of
       Management and Operating or Other Facility Management Contractor Employees for
       Services to DOE in the Washington D.C. Area, which requires evaluations of new
       management and operating contractor employee assignments be completed during the
       preparation of program office annual staffing plans.




Congressional Responses

During this reporting period, the OIG provided information at the request of Congress in
eight instances and briefed Committee staff on seven occasions. In addition, the OIG
testified at two Congressional hearings: (1) on April 25, 2006, before the Subcommittee on
the Federal Workforce and Agency Organizations, House Committee on Government
reform, entitled “Yucca Mountain Project: Broken Management, Broken Quality Assurance,
Broken Project;” and (2) on June 9, 2006, before the Subcommittee on Oversight and
Investigations, House Committee on Energy and Commerce, entitled “Cyber Security
Challenges of the Department of Energy.”




Management Referral System

The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate actions.

The OIG referred 80 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 41 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported. The following demonstrates management’s use of OIG-provided
information to stimulate positive change or to take decisive action:
   ■ In response to an allegation that a subcontractor auditor appeared to have been taking

     actions that constituted an inappropriate conflict of interest, the responsible program
     office reported that the prime contractor removed the auditor from all audits in which
     there appeared to be a conflict. In addition, the prime contractor reimbursed the
     Department of Energy for travel that the auditor had incurred. The Department of
     Energy Project Manager personally advised all auditors connected with the project that
     a conflict of interest is grounds for removal and that no auditor should use an audit to
     promote personal interests.


                                             23
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




   ■   In response to an allegation that possible sensitive floor plans were contained in a
       scientific document posted to a web page, the responsible program office immediately
       withdrew the document from the web site and submitted it for classification review.
       The review determined that the document, while not classified, should not have been
       posted to the web page. The appropriate Department site office is reviewing all public
       web pages and randomly searching web links to ensure that inappropriate material is
       not being posted.
   ■   In response to a referral regarding possible violations of Department of Energy Order
       471.4, “Incidents of Security Concern,” which pertains to the timely reporting of
       security incidents, the program office conducted a review and determined that
       violations had occurred. As a result, the program office initiated actions to prevent
       future violations of the Order.




Qui Tams

The OIG continues to be instrumental in working with the Department of Justice in Qui
Tam cases. The OIG is currently working on 23 Qui Tam lawsuits involving alleged fraud
against the Government in the amount of approximately $157 million. These cases are
highly resource intensive, requiring the active participation of OIG investigative and audit
assets. However, they have often proven to result in a high return on our investments.

                                       Did you know?
 The False Claims Act (Act) prohibits any person from “knowingly” presenting a “false
 or fraudulent claim for payment or approval” to the Federal Government. The Act
 authorizes individual citizens to bring private suits, referred to as qui tam actions, to
 enforce the Act on behalf of the Government.




Intelligence Activities

The OIG issued two quarterly reports pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Intelligence Oversight Board concerning
intelligence activities the Inspectors General have reason to believe may be unlawful or
contrary to Executive order or Presidential directive. No intelligence activities were reported
during this period that were contrary to Executive order or Presidential directive.




                                               24
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Legislative and Regulatory Review

The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on Department
economy and efficiency. The OIG coordinated and reviewed 24 legislative and regulatory
items during the reporting period.




Hotline System

The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 949 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.




                                            25
U . S . D E PA RT M E N T O F E N E R G Y             OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     26
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                    Reports Issued
Audit Reports Issued – April 1, 2006, through September 30, 2006

Report                                                 Date of                 Questioned
Number                        Title                     Issue      Savings       Costs
IG-0725          Information Technology Support        04-19-06 $14,000,000
                 Services at the Department’s
                 Operating Contractors
IG-0726          Implementation of the Department      04-20-06
                 of Energy’s Beryllium-Associated
                 Worker Registry
IG-0727          Management of Spent Nuclear Fuel      05-12-06 $150,000,000
                 at the Savannah River Site
IG-0728          The Department’s Utilization of       05-17-06   $9,100,000
                 Fleet Vehicles
IG-0729          W76 Life Extension Project            05-25-06
IG-0730          The Department's Management of        06-26-06
                 Non-Nuclear High Explosives
IG-0733          Follow-Up Review of the Department 07-12-06
                 of Energy's Response to Hurricanes
                 Katrina and Rita
IG-0736          The Office of Civilian Radioactive    08-16-06
                 Waste Management's Corrective
                 Action Program
IG-0737          Beryllium Controls at the             09-06-06                    $27,400
                 Oak Ridge National Laboratory
IG-0738          The Department’s Unclassified         09-18-06
                 Cyber Security Program – 2006
IG-0739          Performance-Based Contract            09-20-06
                 Incentives at the Hanford Site
IG-0740          The National Nuclear Security         09-26-06 $60,000,000
                 Administration's B61 Spin
                 Rocket Motor Project



                                                  27
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                            Date of                    Questioned
Number                   Title                     Issue        Savings        Costs
OAS-M-06-05   Management Controls over the        04-26-06
              State Energy Program's
              Formula Grants
OAS-M-06-06   Management Controls over            08-04-06
              Cesium and Strontium Capsule
              Disposition at the Hanford Site
OAS-M-06-07   Management Controls over            08-24-06    $2,500,000
              Performance Fees in the Idaho
              National Laboratory Contract
OAS-M-06-08   Management Controls over            08-24-06    $1,200,000
              Small Business Opportunities
              at Lawrence Livermore
              National Laboratory
OAS-M-06-09   Follow-up on the Management     09-12-06
              of Plutonium-239 Sealed Sources
              Recovery Activities
OAS-M-06-10   Management Controls over the        09-25-06
              Federal Energy Regulatory
              Commission's Unclassified Cyber
              Security Program – 2006
OAS-L-06-11   Contract Transition Activities at   04-10-06
              the Idaho Operations Office
OAS-L-06-12   Sandia National Laboratories'       04-10-06
              Safeguards and Security Path
              Forward Management Plan
OAS-L-06-13   Workforce Planning at the       04-25-06
              Power Marketing Administrations
OAS-L-06-14   The Department's Development        05-15-06
              and Implementation of the
              Corporate Human Resource
              Information System
OAS-L-06-15   Storage Capacity of the High        06-15-06
              Level Waste Tanks at the
              Savannah River Site




                                          28
OFFICE OF INSPECTOR GENERAL                         U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                 Date of               Questioned
Number                           Title                  Issue      Savings     Costs
OAS-L-06-16         The Department of Energy's         08-04-06
                    Interaction with the National
                    Coal Council
OAS-L-06-17         Molten Salt Reactor Experiment     08-16-06
                    Cleanup Project
OAS-L-06-18         Performance Based Incentives for   08-21-06
                    BWXT Y-12, LLC
OAS-L-06-19         The Department's Hydrogen          09-07-06
                    Projects
OAS-L-06-20         Special Report on                   09-20-06
                    "The Department's Security over
                    Personally Identifiable Information”
OAS-V-06-11         Assessment of Changes to the     07-21-06                 $1,337,913
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to Los Alamos
                    National Laboratory under
                    Department of Energy
                    Contract No.W-7405-ENG-36
OAS-V-06-12         Assessment of Changes to the     09-14-06
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to Bechtel Nevada
                    Corporation under Department
                    of Energy Contract No.
                    DE-AC08-96NV11718
OAS-V-06-13         Assessment of Changes to the     09-26-06
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to Bechtel Jacobs
                    Company, LLC under Department
                    of Energy Contract Nos.
                    DE-AC05-98OR22700 and
                    DE-AC05-03OR22980




                                               29
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                   SEMIANNUAL REPORT TO CONGRESS




Report                                              Date of                    Questioned
Number                      Title                    Issue        Savings        Costs
OAS-V-06-14    Assessment of Changes to the      09-26-06
               Internal Control Structure and
               Their Impact on the Allowability
               of Costs Claimed by and Reimbursed
               to UT-Battelle, LLC under
               Department of Energy Contract
               No. DE-AC05-00OR22725
OAS-V-06-15    Assessment of Changes to Internal 09-26-06
               Control Structure and Their
               Impact on the Allowability of Costs
               Claimed by and Reimbursed to
               DynMcDermott Petroleum
               Operations Company Under
               Department of Energy Contract
               Nos. DE-AC96-093P018000
               and DE-AC96-03P092207
OAS-V-06-16     Assessment of Changes to the        09-27-06
                Internal Control Structure and
                Their Impact on the Allowability
                of Costs Claimed by and
                Reimbursed to Princeton
                University's Princeton Plasma
                Physics Laboratory under
                Department of Energy Contract
                No. DC-AC02-76CH03073
OAS-FC-06-01 Audit of Fermi National                04-10-06                        $196,835
             Accelerator Laboratory Costs
             Claimed under Contract
             No. DE-AC02-76CH03000
             for Fiscal Year 2004
OAS-FS/         Review of Actions to Correct        05-09-06
CA-06-03        Financial Control and
                Reporting Weaknesses
OAS-FS/         Review of Actions to Correct        06-26-06
CA-06-04        Financial Control and
                Reporting Weaknesses




                                               30
OFFICE OF INSPECTOR GENERAL                           U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued –
April 1, 2006, through September 30, 2006*

Report Number                 Title                                                         Date of Issue

IG-0723                       The Department of Energy’s Review of Export License               04-05-06
                              Applications for China
INS-L-06-04                   Rocky Mountain Oilfield Testing Center Environmental              04-17-06
                              Remediation Associated with Research and
                              Development Activities
IG-0724                       Badge Retrieval and Security Clearance Termination at             04-18-06
                              Sandia National Laboratory-New Mexico
INS-L-06-05                   Protective Force Work Environment at Sandia National              04-24-06
                              Laboratory-New Mexico
INS-O-06-02                   Concerns Regarding Lead Contamination and Radiological            05-17-06
                              Controls at the Nevada Test Site
INS-L-06-06                   Internal Controls for Protective Force Property at the            05-17-06
                              Pantex Plant
INS-L-06-07                   Stanford Linear Accelerator Center Employee Safety Training       06-08-06
IG-0731                       Review of the Protective Force Radio Communication System         06-27-06
                              at Sandia National Laboratory-New Mexico (Classified)
IG-0732                       The Human Reliability Program at Lawrence Livermore               06-30-06
                              National Laboratory
IG-0734                       Internal Controls for Excessing and Surplusing Unclassified       07-26-06
                              Computers at Los Alamos National Laboratory
IG-0735                       Destruction of Classified Hard Drives at Sandia National          08-03-06
                              Laboratory-New Mexico
INS-L-06-08                   Access Controls for Foreign Nationals at the Lawrence             08-28-06
                              Berkeley National Laboratory
*Does not include non-public reports




                                                       31
U . S . D E PA RT M E N T O F E N E R G Y                         OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     32
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information
Audit Report Statistics – April 1, 2006, through September 30, 2006

The following table shows the total number of audit reports and the total dollar value of the
recommendations that funds be put to better use by management:

                                            Total            One Time                 Recurring             Total
                                           Number             Savings                  Savings             Savings
Those issued before the                          7       $1,487,212,839               $6,000,000 $1,493,212,839
reporting period for which
no management decision
has been made:*
Those issued during the                         34          $236,800,000                           $0     $236,800,000
reporting period:
Those for which a                               19          $547,281,766                           $0     $547,281,766
management decision was
made during the
reporting period:*
Agreed to by management:                                      $11,197,296                          $0      $11,197,296
Not agreed by management:                                   $514,684,470                           $0     $514,684,470
Those for which a                               15                          $0                     $0                $0
management decision
is not required:
Those for which no                               7       $1,198,131,073               $6,000,000 $1,204,131,073
management decision has
been made at the end of
the reporting period:*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              33
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics – April 1, 2006, through September 30, 2006

The following table shows the total number of audit reports and the total dollar value of
questioned and unsupported costs.

                                                                      Total Questioned                    Unsupported
                                                                     Number   Costs                          Costs
Those issued before the reporting period                                  0          $4,107,018               $0
for which no management decision
has been made:*
Those issued during the reporting period:                                 3          $1,562,148               $0
Those for which a management decision                                     3          $1,724,408               $0
was made during the reporting period:*
Value of disallowed costs:                                                             $200,972               $0
Value of costs not disallowed:                                                         $158,123               $0
Those for which a management                                              0                      $0           $0
decision is not required:
Those for which no management decision                                    0          $5,310,071               $0
has been made at the end of the
reporting period:*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




Reports Lacking Management Decision
The Department has a system in place to track audit reports and management decisions. Its
purpose is to ensure that recommendations and corrective actions indicated by audit
agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are audit reports over six months old that were issued before the
beginning of the reporting period and for which no management decisions had been made
by the end of the reporting period. The reasons management decisions had not been made
and the estimated dates (where available) for achieving management decisions are also
included.

    ■   Management Audits
        CR-B-99-02: Management of Unneeded Materials and Chemicals,
        September 30, 1999 – The management decision was signed on June 23, 2005, assigning
        programs with the responsibility to develop unneeded materials and chemical disposal plans.



                                                              34
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




     Program elements have submitted their plans for review. The Department is currently
     reviewing theses plans to ensure each adequately addresses audit report recommendations.
     The Department expects to submit completion reports to the OIG by December 31, 2006.

     IG-0669: Use and Management of Mobile Communications Services,
     December 14, 2004 – The finalization of the management decision for this report is
     awaiting review of the proposed costs for contracted support to perform the activities cited in
     the Inspector General audit. Beyond that, review and concurrence by the necessary
     Departmental Elements will be obtained. This should occur by March 31, 2007.

     IG-0688: The National Nuclear Security Administration’s Pit Disassembly and
     Conversion Facility, May 3, 2005 – The finalization of the management decision is
     pending the resolution of complex issues. This should occur by December 31, 2006.

     IG-0718: Management of the Department’s Desktop Computer Software Enterprise
     License Agreements, January 30, 2006 – The finalization of the management decision is
     pending the resolution of complex issues. This should occur by December 31, 2006.




Prior Significant Recommendations Not Implemented
As of September 2006, closure actions on recommendations in 38 OIG reports had not
been fully implemented within 12 months from the date of report issuance. The OIG is
committed to working with management to expeditiously address the management decision
and corrective action process, recognizing that certain initiatives will require long-term,
sustained, and concerted efforts. The Department has undertaken a series of initiatives
to strengthen its process for addressing recommendations in OIG reports and closed
150 recommendations in the last 6 months. Management updates the Departmental
Audit Report Tracking System on a quarterly basis, most recently in September 2006.
Information on the status of any report recommendation can be obtained through the
OIG’s Office of Audit Services and Office of Inspections and Special Inquiries.




                                                35
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Statistics – April 1, 2006, through September 30, 2006

Inspections/Special Inquiries open at the start of this reporting period                                                        88
Inspections/Special Inquiries opened during this reporting period                                                               23
Inspections/Special Inquiries closed during this reporting period                                                                4
Inspections open at the end of this reporting period                                                                       107
Reports issued (includes non-public reports)                                                                                    15
Report Recommendations*
          Issued this reporting period                                                                                          41
          Accepted by management this reporting period                                                                          39
          Implemented by management this reporting period                                                                       31
Complaints referred to Department management/others                                                                             80
          Referrals to Department management requesting a response for OIG evaluation                                           41
*Includes non-public report recommendations




Hotline Statistics – April 1, 2006, through September 30, 2006

Hotline calls, emails, letters, and other complaints                                                                      949*
Hotline calls, emails, letters, and other complaints predicated                                                            202
Unresolved Hotline predications from previous reporting period                                                                   9
          Total Hotline predications                                                                                       211
Hotline predications transferred to the Management Referral System                                                              95
Hotline predications closed based upon preliminary OIG activity                                                            106
Hotline predications pending disposition                                                                                        10
          Total predications processed                                                                                     211
*The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                              36
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics – April 1, 2006, through September 30, 2006

Investigations open at the start of this reporting period                                                                    271
Investigations opened during this reporting period                                                                            75
Investigations closed during this reporting period                                                                            73
Investigations open at the end of this reporting period                                                                      273
Qui Tam investigations opened                                                                                                      5
         Total open Qui Tam investigations as of 9/30/05                                                                      23
Multi-agency task force investigations opened                                                                                 20
         Total open multi-agency task force investigations as of 9/30/05                                                     136
Investigative reports to prosecutors and Department management                                                                23
Recommendations to management for positive change and other actions                                                           94
Administrative discipline and other management actions                                                                        55
Suspensions/Debarments                                                                                                        33
Investigations referred for prosecution                                                                                       15
          Accepted*                                                                                                           16
          Indictments                                                                                                         32
          Criminal convictions                                                                                                14
          Pretrial diversions                                                                                                      2
          Civil actions                                                                                                            1
Fines, settlements, recoveries**                                                                           $10,307,608.18
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                               37
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                            SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet
The contents of the October 2006 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet
and return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          Washington, D.C. 20585

          ATTN: Juston Fontaine



Name: __________________________________________________________________


Daytime Telephone Number: ________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed.)




                                               38
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                            Office of Inspector General
                                Gregory H. Friedman
                                  Inspector General

      This report is also available on the Department of Energy/Office of Inspector General
                                Website at http://www.ig.energy.gov




Cover Pictures


(clockwise from top left)

Wind power turbine located at Altamont Pass near Livermore, California

The Gammasphere, designed to detect and analyze gamma rays, in the final assembly phase at
Lawrence Berkeley National Laboratory

Helicopter transporting power line equipment for the development of the Snettisham Project in Alaska

Welding on a low beta quadropole magnet at Fermilab

Dish solar power system at the Arizona Public Service Solar Test and Research Center
